IN THE
SUPREME COURT OF THE UNITED STATES
No. 20-1374
CVS PHARMACY, INC.; CAREMARK, L.L.C.;
AND CAREMARK CALIFORNIA SPECIALTY
PHARMACY, L.L.C.,
Petitioners,
v.
JOHN DOE ONE, RICHARD ROE, JOHN DOE
THREE, JOHN DOE FOUR, AND JOHN DOE
FIVE, ON BEHALF OF THEMSELVES AND
ALL OTHERS SIMILARLY SITUATED,
Respondents.
On Writ of Certiorari to the
United States Court of Appeals for the Ninth Circuit

SUGGESTION OF DEATH AND
MOTION FOR SUBSTITUTION
I.

SUGGESTION OF DEATH
Counsel for Respondents hereby give notice of the death of Respondent John Doe Three

on August 13, 2021.
II.

MOTION FOR SUBSTITUTION
Supreme Court Rule 35.1 provides, “If a party dies after the filing of a petition for a writ

of certiorari to this Court … the authorized representative of the deceased party may appear and,
on motion, be substituted as a party.” John Doe Four is the executor of John Doe Three’s estate
and is his authorized representative with regard to this litigation. John Doe Four has agreed to
1

participate as a party to this case as John Doe Three’s authorized representative in addition to his
personal capacity. Therefore, Respondents propose that they be listed in the caption of the case
as “John Doe One, Richard Roe, John Doe Four in his personal capacity and as the authorized
representative of John Doe Three, and John Doe Five, on behalf of themselves and all others
similarly situated.”1

Respectfully submitted,
/s/ Gerald S. Flanagan
Gerald S. Flanagan
Counsel of Record
Consumer Watchdog
Daniel L. Sternberg
Benjamin R. Powell
6330 San Vicente Blvd.
Suite 250
Los Angeles, CA 90048
(310) 392-0522
jerry@consumerwatchdog.org

Alan M. Mansfield
Whatley Kallas LLP
16870 W. Bernardo Dr.
Suite 400
San Diego, CA 92127
Henry C. Quillen
Whatley Kallas LLP
159 Middle St., Suite 2C
Portsmouth, NH 03801

Counsel for Respondents
August 30, 2021

1

Petitioner does not oppose this request.

2

IN THE
SUPREME COURT OF THE UNITED STATES
No. 20-1374
CVS PHARMACY, INC.; CAREMARK, L.L.C.;
AND CAREMARK CALIFORNIA SPECIALTY
PHARMACY, L.L.C.,
Petitioners,
v.
JOHN DOE ONE, RICHARD ROE, JOHN DOE
THREE, JOHN DOE FOUR, AND JOHN DOE
FIVE, ON BEHALF OF THEMSELVES AND ALL
OTHERS SIMILARLY SITUATED,
Respondents.
CERTIFICATE OF SERVICE
I, Gerald S. Flanagan, a member of the Bar of this Court and counsel for petitioners, hereby
certify pursuant to Rules 29.3 and 29.5(b) of the Rules of the Supreme Court, that I served the
attached Suggestion of Death and Motion for Substitution, filed this 30th day of August, 2021, on all
parties required to be served, by causing copies of the document to be sent via email and first class
mail, as indicated below:
Lisa Schiavo Blatt
Counsel of Record
Williams & Connolly LLP
725 12th Street, NW
Washington, DC 20005
lblatt@wc.com
202-434-5050
Counsel for Petitioners
/s/ Gerald S. Flanagan
Gerald S. Flanagan

